Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


     MEDICARE COMPLIANCE
          REVIEW OF
ST. VINCENT’S MEDICAL CENTER
     FOR CALENDAR YEARS
        2009 AND 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                      December 2013
                                                      A-04-12-08013
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay. In addition to the basic prospective payment,
hospitals may be eligible for an additional payment, called an outlier payment, when the
hospital’s costs exceed certain thresholds.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of claims using computer matching, data mining, and analysis of claims.
This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
types of claims for inpatient and outpatient services.

St. Vincent’s Medical Center, Inc. (the Hospital), is a 528-bed acute care facility located in
Jacksonville, Florida. Medicare paid the Hospital approximately $279 million for 30,587
inpatient and 223,186 outpatient claims for services provided to beneficiaries during calendar
years (CYs) 2009 and 2010 based on CMS’s National Claims History data.

Our audit covered $30,762,321 in Medicare payments to the Hospital for 4,087 claims that were
potentially at risk for billing errors. We randomly selected a sample of 200 (197 inpatient and 3
outpatient) claims with payments totaling $1,382,935 for review. Additionally, we judgmentally
selected 7 (2 inpatient and 5 outpatient) claims involving replaced medical devices totaling
$65,022. These 207 claims had dates of service in CYs 2009 and 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected types of claims.

                                                  i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for the majority of the claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 52
claims resulting in overpayments totaling $282,217. Specifically:

   •   45 randomly selected inpatient claims had overpayments totaling $246,316,

   •   2 judgmentally selected inpatient claims had overpayments totaling $15,084, and

   •   5 judgmentally selected outpatient claims had overpayments totaling $20,817.

Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims within the selected risk areas that contained errors.

Based on our random sample results, we estimated that the Hospital received overpayments
totaling at least $3,248,566 for CYs 2009 and 2010. In addition, based on our judgmental
sample results, the Hospital received overpayments totaling $35,901 for 7 claims involving
medical devices.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $3,248,566 in estimated overpayments for CYs 2009 and
       2010 claims that it incorrectly billed,

   •   refund to the Medicare program $35,901 in overpayments for CY 2009 that it incorrectly
       billed for medical device claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

ST. VINCENT’S MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital did not agree with our first
recommendation and stated that CMS is time-barred from recovering any claims paid in 2009.
Section 1870(b) of the Act prohibits recovery of any paid claims subsequent to the third calendar
year after the year of payment because providers are deemed to be “without fault.” For claims
paid in 2009, the last day to recover an overpayment was December 31, 2012. In addition, even
if the Hospital were not “without fault,” many of the 2009 claims could not be reopened beyond
4 years under Medicare’s reopening rules, even if CMS could establish “good cause.”

The Hospital contested that 31 inpatient claims were improperly billed. For these, it either did
not agree with our error determinations or argued the claim was time-barred. The Hospital had
further concerns over our use of both judgmental and statistical sampling approaches in this
audit. It objected to the use of statistical sampling and extrapolation as being unwarranted as a

                                                 ii
matter of law and statistical integrity and said that statistical sampling could result in repaying
Medicare twice if claims under review by a Recovery Audit Contractor (RAC) were included in
the sampling frame.

The Hospital also disagreed with our second recommendation. Specifically, the Hospital stated
that all 7 judgmentally selected, medical device claims were time-barred from being recovered.
In regard to our third recommendation, the Hospital discussed steps it had taken or planned to
take to strengthen its internal controls to ensure compliance with Medicare billing requirements.

OFFICE OF INSPECTOR GENERAL RESPONSE

Claims Remain Subject to Reopening and Recovery

We disagree with the Hospital’s assertion that the 2009 claims are time-barred. The claims from
2009 are eligible for reopening under the “similar fault” provisions of the reopening regulations
at 42 CFR part 405, subpart I. The regulation at section 405.980(b) provides that an initial
determination or redetermination can be reopened at any time if there is reliable evidence of
fraud or similar fault. Although OIG is not alleging that the Hospital engaged in fraud, its
improper billings are sufficient to establish “similar fault” under current Medicare guidance (42
CFR § 405.902 and 70 Fed. Reg. 11420 and 11450 (March 8, 2005)). Therefore, there is no time
limit that would prohibit the reopening of the claims questioned in this report.

The Hospital is not “without fault” with respect to the claims questioned in the report and,
therefore, recovery is not time-barred under the Act, section 1870(b). CMS guidance states that
a provider is not without fault if, among other circumstances, the provider should have known
that the underlying services were non-covered. Furthermore, a provider should know of a policy
or rule if the policy or rule is in the provider manual or in Federal regulation (Medicare
Financial Management Manual, Pub. 100-06, chapter 3, § 90.1). We questioned the claims in
this report on the basis of criteria drawn from statutory, regulatory, and manual provisions with
which the Hospital is expected to be familiar. Therefore, the Hospital is not “without fault” with
respect to our findings above.

Contested Determinations of Claims

After issuing our draft report, we obtained an independent medical review of all remaining
inpatient claims for medical and coding errors. This information resulted in a reduction from 56
to 47 in the number of inpatient claims that we identified in our draft report as being in error.
Our report now reflects the results of the additional medical review determinations, and we
adjusted our first recommendation to reflect the reductions in the total estimated overpayment to
$3,248,566.

Statistical Sampling

During the course of the audit, we discussed with a Hospital official our plans to use statistical
sampling. As the hospital compliance review initiative has matured, we have refined our audit
methodologies. Some reviews use statistical sampling and estimation techniques to draw

                                                 iii
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and non-statistical methods for selecting our samples.

We acknowledge that most previously published compliance reviews did not use statistical
sampling and estimation. However, we maintain that the statistical sampling and estimation
techniques planned and used for this review are statistically valid methodologies that we have
successfully used to identify overpayments. In response to the Hospital’s concerns over our use
of both judgmental and statistical sampling approaches in this audit, we identified the seven
judgmentally selected medical device claims prior to random sampling. We did not include
these claims in the sampling frame for the statistically selected claims and did not use them as
the basis for extrapolation. We did rely on a statistically valid sample.

With respect to the Hospital’s concern about being potentially at risk more than once for reviews
of the same claims in our sampling frame, we have taken steps to exclude all claims in our
sampling frame from future RAC review. However, to prevent repaying Medicare twice for
claims we audited, the Hospital should tell CMS which claims in our sampling frame were
previously adjusted as a result of a RAC review. CMS can then reduce the amount we
recommended the Hospital refund ($3,248,566) by the amount already repaid as a result of any
RAC review.




                                                 iv
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Hospital Inpatient Prospective Payment System .................................................. 1
              Hospital Outpatient Prospective Payment System................................................ 1
              Hospital Claims at Risk for Incorrect Billing ....................................................... 2
              Medicare Requirements for Hospital Claims and Payments ................................ 2
              St. Vincent’s Medical Center, Inc. ....................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 3
               Objective ............................................................................................................... 3
               Scope..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

          BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS............................... 5
                Incorrectly Billed as Inpatient............................................................................... 5
                Incorrect Diagnosis-Related Group Codes ........................................................... 6
                Incorrect Reporting of Medical Device Credit ..................................................... 6
                Incorrect Discharge Status .................................................................................... 7
                Incorrect Charges Resulting in an Improper Outlier Payment.............................. 7

          BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS........................... 7
                Incorrect Reporting of Medical Device Credits .................................................... 8

          OVERALL ESTIMATE OF OVERPAYMENTS ........................................................... 8

          RECOMMENDATIONS .................................................................................................. 8

          ST. VINCENT’S MEDICAL CENTER COMMENTS ................................................... 8
                2009 Claims Are Time-Barred.............................................................................. 9
                Contested Determinations of Claims .................................................................... 9
                Statistical Sampling .............................................................................................. 9

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 10
               Claims Remain Subject to Reopening and Recovery ......................................... 10
               Contested Determinations of Claims .................................................................. 10
               Statistical Sampling ............................................................................................ 10




                                                                     v
APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: RESULTS OF REVIEW BY RISK AREA

    D: ST. VINCENT’S MEDICAL CENTER COMMENTS




                                vi
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay. In addition to the basic prospective payment,
hospitals may be eligible for an additional payment, called an outlier payment, when the
hospital’s costs exceed certain thresholds.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources.




1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.




                                                         1
Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis of
claims. The types of claims identified included:

   •   inpatient claims for short stays,

   •   inpatient claims billed with high-severity-level DRG codes,

   •   inpatient claims paid in excess of charges,

   •   inpatient and outpatient manufacturer credits for replaced medical devices,

   •   inpatient claims with same day discharges and readmissions, and

   •   outpatient claims greater than $25,000.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
types of claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

St. Vincent’s Medical Center, Inc.

St. Vincent’s Medical Center, Inc. (the Hospital), is a 528-bed acute care facility located in
Jacksonville, Florida. According to CMS’s National Claims History (NCH) data, Medicare paid
the Hospital approximately $279 million for 30,587 inpatient and 223,186 outpatient claims for
services provided to beneficiaries during calendar years (CYs) 2009 and 2010.


                                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected types of claims.

Scope

Our audit covered $30,762,321 in Medicare payments to the Hospital for 4,087 claims that were
potentially at risk for billing errors from which we randomly selected a sample of 200 (197
inpatient and 3 outpatient) claims totaling $1,382,935. Additionally, we judgmentally selected 7
(2 inpatient and 5 outpatient) claims involving replaced medical devices totaling $65,022. These
207 claims had dates of service in CYs 2009 and 2010.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 63
inpatient claims to focused medical review to determine whether the services met medical
necessity and coding requirements. We limited our review of the Hospital’s internal controls to
those applicable to the inpatient and outpatient areas of review because our objective did not
require an understanding of all internal controls over the submission and processing of claims.
We established reasonable assurance of the authenticity and accuracy of the data obtained from
the NCH file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from February through November 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s NCH file
        for CYs 2009 and 2010;

   •    obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2009 and 2010;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    selected a judgmental sample of 7 claims (2 inpatient and 5 outpatient) totaling $65,022
        (involving manufacturer credits for replaced medical devices) for detailed review;


                                                 3
   •   selected a random sample of 200 claims (197 inpatient and 3 outpatient) totaling
       $1,382,935 for detailed review (Appendix A);

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning DRG, HCPCS and admission status
       codes for Medicare claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   used an independent medical review contractor to determine whether 63 sampled claims
       met medical necessity and coding requirements;

   •   calculated the correct payments for those claims requiring adjustment;

   •   used OIG/Office of Audit Services (OAS) software to estimate the total overpayment to
       the Hospital (Appendix B); and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for the majority of the claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 52
claims resulting in overpayments totaling $282,217. Specifically:

   •   45 randomly selected inpatient claims had overpayments totaling $246,316,

   •   2 judgmentally selected inpatient claims had overpayments totaling $15,084, and

   •   5 judgmentally selected outpatient claims had overpayments totaling $20,817.


                                                4
Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims within the selected risk areas that contained errors.

Based on our random sample results, we estimated that the Hospital received overpayments
totaling at least $3,248,566 for CYs 2009 and 2010. See Appendix A for details on our sample
design and methodology, Appendix B for our sample results and estimates, and Appendix C for
the results of our review by risk area. In addition, based on our judgmental sample results, the
Hospital received overpayments totaling $35,901 for 7 claims involving medical devices.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 47 of the 199 inpatient claims that we reviewed.
Some claims contained more than one type of error. 3 These errors resulted in overpayments
totaling $261,400.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Section 1814(a)(3) of the Act
states that payment for services furnished to an individual may be made only to providers of
services that are eligible and only if, “with respect to inpatient hospital services … which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment….” Federal regulations (42 CFR
§ 424.13(a)) state that Medicare Part A pays for inpatient hospital services only if a physician
certifies and recertifies, among other things, the reasons for continued hospitalization.

For 43 of 199 inpatient claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that did not meet Medicare criteria for inpatient status and either should have been billed as
outpatient or outpatient with observation services, or did not have a valid physician’s order to
admit the beneficiary to inpatient care.

    •   For 42 claims, the Hospital incorrectly billed for beneficiaries whose level of care and
        services provided should have been billed as outpatient or outpatient with observation
        services. Additionally, some of these contained multiple errors such as the medical
        records contained conflicting or unclear admission information. For example, a
        physician wrote, “Change from inpatient to day-stay per care management (protocol),”
        and the Hospital defaulted to inpatient admission. Other claims were supported by
        medical records on which the care manager wrote a clarifying order from “observation”
        to “inpatient” status that was not subsequently authenticated by a physician, and the
        Hospital defaulted to inpatient admission. One judgmentally selected claim, totaling

3
 For randomly sampled claims that contained more than one type of error, the total claim overpayment was used for
error estimation. We did not estimate errors on the same claim twice.




                                                        5
         $11,484, also contained multiple errors. For this claim, the medical record contained a
         standing order indicating that the patient should “remain in the current status. The Care
         Manager to review and change status based on CM (Care Manager) protocol [sic],” and
         the Hospital defaulted to inpatient admission and incorrectly billed a warranty credit.

    •    For 1 claim, the beneficiary met the level of care and services provided, however, the
         Hospital incorrectly billed for inpatient services when the medical records did not contain
         a valid order signed by a physician.

The Hospital stated that these errors occurred because physicians were not always required to
write or certify orders that designated the level of service required for treatment. Additionally,
care manager shortages prevented screenings from being conducted before patients were
discharged, and chart errors were not identified and corrected timely. As a result, the Hospital
received overpayments totaling $252,819. 4

Incorrect Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2, of the
Manual requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly.

For 1 of 199 inpatient claims, the Hospital billed Medicare for incorrect DRG codes. The
Hospital stated that this coding error occurred because its medical coders misinterpreted the code
guidelines for correct sequencing and coding of the claim. As a result, the Hospital received an
overpayment of $1,874.

Incorrect Reporting of Medical Device Credit

Federal regulations (42 CFR § 412.89) require reductions in the inpatient prospective payment
for the replacement of an implanted device if (1) the device is replaced without cost to the
provider, (2) the provider receives full credit for the cost of a device, or (3) the provider receives
a credit equal to 50 percent or more of the cost of the device. The Manual, chapter 3, section
100.8, states that to bill correctly for a replacement device that was provided with a credit, the
hospital must code its Medicare claims with a combination of condition code 49 or 50 along with
value code “FD.”

For 1 of 199 inpatient claims, the Hospital received a reportable medical device credit from a
manufacturer for a replaced device but did not adjust its inpatient claim with the proper condition

4
  With the exception of the claims that did not have a valid physicians order, the Hospital may be able to bill
Medicare Part B for all services (except for services that specifically require an outpatient status) that would have
been reasonable and necessary had the beneficiary been treated as a hospital outpatient rather than admitted as an
inpatient. We were unable to determine the effect that billing Medicare Part B would have on the overpayment
amount because these services had not been billed or adjudicated by the Medicare administrative contractor prior to
the issuance of our report.



                                                          6
and value codes to reduce payment as required. The Hospital stated that this error occurred
because the manufacturer did not receive the explanted device from the Hospital and the credit
dollar amount was not known at the time of billing. As a result, the Hospital received an
overpayment of $3,600 on this judgmentally selected claim.

Incorrect Discharge Status

Federal regulations (42 CFR § 412.4(c) and (f)) state that a discharge of a hospital inpatient is
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a home under a written plan of care for the provision of home
health services from a home health agency and those services begin within 3 days after the date
of discharge. A hospital that transfers an inpatient under the above circumstance is paid a
graduated per diem rate for each day of the patient’s stay in that hospital, not to exceed the full
DRG payment that would have been paid if the patient had been discharged to another setting.

For 1 of 199 inpatient claims, the Hospital billed Medicare for a patient discharge that should
have been billed as a transfer. For this claim, the Hospital should have coded the discharge
status as a transfer to home under a written plan of care for the provision of home health
services. However, the Hospital incorrectly coded the discharge status to home, thus the
Hospital should have received the per diem payment instead of the full DRG. The Hospital
stated that this error occurred because the medical record contained conflicting information that
resulted in the medical coder selecting the incorrect discharge status. As a result, the Hospital
received an overpayment of $2,876.

Incorrect Charges Resulting in an Improper Outlier Payment

Section 1815(a) of the Act precludes payment to any provider without information necessary to
determine the amount due the provider. Chapter 3, section 10, of the Manual states that a
hospital may bill only for services provided. Additionally, chapter 1, section 80.3.2.2, requires
providers to complete claims accurately so that Medicare contractors may process them correctly
and promptly.

For 1 of the 199 inpatient claims, the Hospital incorrectly billed Medicare for pharmacy services,
supplies, and injection procedures that the medical records did not support as having ever been
given to the patient. The Hospital indicated that this error occurred because its procedures did
not provide information necessary to ensure that discrepancies between the billing system and
the medical record documentation were identified and corrected. As a result, the Hospital
received an overpayment of $231.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 5 of the 8 outpatient claims that we reviewed.
These errors resulted in overpayments totaling $20,817.




                                                 7
Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if: (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

For 5 of the 8 outpatient claims, the Hospital received full credit for replaced devices but did not
report the “FB” modifier and reduced charges on its claims. The Hospital stated that these errors
occurred because the manufacturers did not always receive the explanted devices from the
Hospital and the credit dollar amount was not known at the time of billing. As a result, the
Hospital received overpayments totaling $20,817 for these judgmentally selected claims.

OVERALL ESTIMATE OF OVERPAYMENTS

Based on our random sample results, we estimated that the Hospital received overpayments
totaling at least $3,248,566 for CYs 2009 and 2010. See Appendix A for details on our sample
design and methodology and Appendix B for our sample results and estimates. In addition,
based on our judgmental sample results, the Hospital received overpayments totaling $35,901 for
7 claims involving medical devices.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $3,248,566 in estimated overpayments for CYs 2009 and
       2010 claims that it incorrectly billed,

   •   refund to the Medicare program $35,901 in overpayments for CY 2009 that it incorrectly
       billed for medical device claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

ST. VINCENT’S MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital did not agree with our first
recommendation. In regard to our second recommendation, the Hospital stated that all 7


                                                   8
judgmentally selected medical device claims were time-barred from being recovered. In regard
to our third recommendation, the Hospital discussed steps it had taken or planned to take to
strengthen its internal controls to ensure compliance with Medicare billing requirements.

2009 Claims Are Time-Barred

The Hospital stated that CMS is time-barred from recovering any claims paid in 2009. Section
1870(b) of the Act prohibits recovery of any paid claims subsequent to the third calendar year
after the year of payment because providers are deemed to be “without fault.” For claims paid in
2009, the last day to recover an overpayment was December 31, 2012. In addition, even if the
Hospital were not “without fault,” many of the 2009 claims could not be reopened beyond 4
years under Medicare’s reopening rules, even if CMS could establish “good cause.”

Contested Determinations of Claims

The Hospital contested that 31 inpatient claims were improperly billed. For these, it either did
not agree with our error determinations or argued the claim was time-barred.

Statistical Sampling

The Hospital objected to the use of statistical sampling and extrapolation as being unwarranted
as a matter of law and statistical integrity and said that statistical sampling could result in
repaying Medicare twice if claims under review by a Recovery Audit Contractor (RAC) were
included in the sampling frame.

Matter of Law

With respect to the matter of law, the Hospital noted that the authority of CMS and its
contractors to extrapolate is subject to strict statutory and regulatory limits.

Statistical Integrity

The Hospital stated that including both judgmentally and statistically selected claims in the same
audit invalidates the statistical estimations. Secondly, it had concerns with the decision to
extrapolate the results of the audit using a post-stratification methodology. Thirdly, the Hospital
contended that the integrity of the statistical sampling is harmed by the unacceptably high
precision level of 30.72 percent at the 90-percent confidence level and recommended that OIG
not use claims from Stratum 2 for extrapolation.

Duplicate Refunds

The Hospital said that our sample frame included several claims that the RAC had also reviewed.
The Hospital believed that including RAC claims in our sample frame, especially claims that the
Hospital had already repaid, would result in the Hospital repaying Medicare twice.




                                                 9
The Hospital’s response is included as Appendix D. We excluded supporting schedules and
reference material from the Hospital’s response because it included personally identifiable
information.

OFFICE OF INSPECTOR GENERAL RESPONSE

Claims Remain Subject to Reopening and Recovery

We disagree with the Hospital’s argument that the 2009 claims are time-barred.

Reopening

The claims from 2009 are eligible for reopening under the “similar fault” provisions of the
reopening regulations at 42 CFR part 405, subpart I. The regulation at section 405.980(b)
provides that an initial determination or redetermination can be reopened at any time if there is
reliable evidence of fraud or similar fault. Although OIG is not alleging that the Hospital
engaged in fraud, its improper billings are sufficient to establish “similar fault” under current
Medicare guidance (42 CFR § 405.902 and 70 Fed. Reg. 11420 and 11450 (March 8, 2005)).
Therefore, there is no time limit that would prohibit the reopening of the claims questioned in
this report.

Recovery

The Hospital is not “without fault” with respect to the claims questioned in the report and,
therefore, recovery is not time-barred under section 1870(b). CMS guidance states that a
provider is not without fault if, among other circumstances, the provider should have known that
the underlying services were non-covered. Furthermore, a provider should know of a policy or
rule if the policy or rule is in the provider manual or in Federal regulation (Medicare Financial
Management Manual, Pub. 100-06, chapter 3, § 90.1). We questioned the claims in this report
on the basis of criteria drawn from statutory, regulatory, and manual provisions with which the
Hospital is expected to be familiar. Therefore, the Hospital is not “without fault” with respect to
our findings above.

Contested Determinations of Claims

After issuing our draft report, we obtained an independent medical review of all remaining
inpatient claims for medical and coding errors. This information resulted in a reduction from 56
to 47 in the number of inpatient claims that we identified in our draft report as being in error.
Our report now reflects the results of the additional medical review determinations, and we
adjusted our first recommendation to reflect the reductions in the total estimated overpayment to
$3,248,566.

Statistical Sampling

During the course of the audit, we discussed with a Hospital official our plans to use statistical
sampling. As the hospital compliance review initiative has matured, we have refined our audit
methodologies. Some reviews use statistical sampling and estimation techniques to draw

                                                 10
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and non-statistical methods for selecting our samples.

We acknowledge that most previously published compliance reviews did not use statistical
sampling and estimation. However, we maintain that the statistical sampling and estimation
techniques planned and used for this review are statistically valid methodologies that we have
successfully used to identify overpayments. Therefore, we recommend that the Hospital refund
to the Medicare program $3,248,566 in estimated overpayments for the audit period.

Matter of Law

Courts have long held the validity of using sampling and extrapolation in audits of Federal health
programs. 5 Furthermore, such statistical sampling and methodology may be used in cases
seeking recovery against States, individual providers, and private institutions. 6

Statistical Integrity

In response to the Hospital’s concerns over our use of both judgmental and statistical sampling
approaches in this audit, we identified the seven judgmentally selected medical device claims
prior to random sampling. We did not include these claims in the sampling frame for the
statistically selected claims and did not use them as the basis for extrapolation. We did rely on a
statistically valid sample. 7 In his book, Sample Design in Business Research, W. Edwards
Deming (1960) states: “An estimate made from a sample is valid if it is unbiased or nearly so
and if we can compute its margin of sampling error for a given probability.” We select our
samples according to principles of probability (every sampling unit has a known, nonzero chance
of selection). We use the difference estimator (an unbiased estimator) for monetary recovery and
recommend recovery at the lower limit of the 90-percent, two-sided confidence interval. After
further medical review of Stratum 2 claims, we have not estimated errors related to claims in
Stratum 2, but the dollar value of the claim overpayments from Stratum 2 have been added to the
total estimated overpayments.




5
  See, e.g., State of Georgia v. Califano, 446 F. Supp. 404, 409-410 (N.D.Ga. 1977) (ruling that sampling and
extrapolation are valid audit techniques for programs under Title IV of the Social Security Act); Ratanasen v.
California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993) (ruling that simple random sampling and
subsequent extrapolation were valid techniques to calculate Medi-Cal overpayments); Illinois Physicians Union v.
Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982) (ruling that random sampling and extrapolation were valid statistical
techniques for calculating Medicaid overpayments claimed against an individual physician).
6
    Illinois Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982).
7
 See Puerto Rico Department of Health, DAB (Departmental Appeals Board) No. 2385 (2011) (DAB upholding
disallowance of claims based on statistical sampling and statistical methodology).




                                                            11
Duplicate Refunds

With respect to the Hospital’s concern about being potentially at risk more than once for reviews
of the same claims in our sampling frame, we have taken steps to exclude all claims in our
sampling frame from future RAC review. However, to prevent repaying Medicare twice for
claims we audited, the Hospital should tell CMS which claims in our sampling frame were
previously adjusted as a result of a RAC review. CMS can then reduce the amount we
recommended the Hospital refund ($3,248,566) by the amount already repaid as a result of any
RAC review.




                                                12
APPENDIXES
                                                                                       Page 1 of 2

                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population is inpatient and outpatient claims paid to the Hospital for services provided to
Medicare beneficiaries during CYs 2009 and 2010.

SAMPLING FRAME

According to CMS’s National Claims History (NCH) data, Medicare paid the Hospital
$279,199,261 for 30,587 inpatient and 223,186 outpatient claims for services provided to
beneficiaries during CYs 2009 and 2010.

We obtained a database of claims from the NCH data totaling $156,645,074 for 14,369 inpatient
and 59,566 outpatient claims in 30 high-risk areas. From the 30 high-risk areas, we selected 6
that consisted of 4,565 claims totaling $35,061,476. The high-risk categories are: Inpatient
Short Stays, Inpatient Claims With High-Severity-Level DRG Codes, Inpatient Claims Paid in
Excess of Charges, Medical Devices, Outpatient Claims Greater Than $25,000, and Inpatient
Claims With Same Day Discharge and Readmission.

We combined claims from each of the high-risk areas into a single database. We then removed
478 claims totaling $4,299,154 as follows:

   •   all claims that were $0,

   •   all claims that were under review by the Recovery Audit Contractor, and

   •   all duplicate claims.

This resulted in 4,087 unique Medicare claims remaining, totaling $30,762,321, from which we
drew our sample.

SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used simple random sampling to select the sample claims.

SAMPLE SIZE

We selected 200 sample claims for review.
                                                                                     Page 2 of 2

SOURCE OF RANDOM NUMBERS

We generated 200 random numbers using the Office of Inspector General, Office of Audit
Services, statistical software Random Number Generator.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims in our sampling frame from 1 to 4,087. After generating
the 200 random numbers, we selected the corresponding claims from our sampling frame.

ESTIMATION METHODOLOGY

Post-stratification: After randomly selecting 200 sample claims from our sampling frame of
4,087 unique Medicare claims, we stratified these claims into one of three different strata:

                                         Sampled Claims by Stratum 8

                                                                  Number of       Number of
    Stratum                 Medicare High-Risk Area                Claims in     Claims in the
                                                                 Sample Frame       Sample
      1         Inpatient Short Stays                                      2,307            110
      2         Inpatient Claims With High-Severity-Level                  1,275             73
                DRG Codes
                Inpatient Claims Paid in Excess of Charges                  286                 11
      3         Medical Devices                                             158                  4
                Outpatient Claims Greater Than $25,000                       46                  2
                Inpatient Same Day Discharges and                            15                  0
                Readmissions
                TOTAL                                                     4,087                200




8
    Each claim can appear in only one stratum.
                     APPENDIX B: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS
                                                                         Number of
                Frame                        Sample                      Improperly      Value of
                              Value of                    Value of
    Stratum      Size                         Size                          Billed    Overpayments in
                               Frame                      Sample
               (Claims)                                                   Claims in       Sample
                                                                           Sample
      1              2,307 $15,383,467             110      $726,871               40        $221,047
      2              1,275   9,009,435              73       480,910                5          25,269
      3                505   6,369,419              17       175,154                0                0
     Total           4,087 $30,762,321             200    $1,382,935               45        $246,316

ESTIMATES

                    Estimated Value of Overpayments for CYs 2009 and 2010
                       Limits Calculated for a 90-Percent Confidence Interval

                                        Point Estimate              $4,635,969
                                        Lower limit                 $3,248,566 9
                                        Upper limit                 $6,048,642




9
 In accordance with OAS policy, we did not use the results from Stratum 2 in calculating the estimated
overpayments. Instead, we added the actual overpayment from Stratum 2 ($25,269) to the lower limit ($3,223,297),
which resulted in an adjusted lower limit of $3,248,566.
                    APPENDIX C: RESULTS OF REVIEW BY RISK AREA


                                                                                Claims With
                                             Selected       Value of Selected                    Value of Over-
      Risk Area for Random Sample                                                  Over-
                                             Claims             Claims                             payments
                                                                                 payments
    Inpatient

    Short Stays                                     110             $726,871                40          $221,047

    Claims Billed With High-Severity-
    Level DRG Codes                                  73              480,910                 5            25,269

    Claims Paid in Excess of Charges                 11               79,411                 0                  0

    Manufacturer Credits for Replaced
    Medical Devices                                     3             23,808                 0                  0

    Same Day Discharges and
    Readmissions                                        0                  0                 0                  0

      Inpatient Totals                              197           $1,311,000                45          $246,316

    Outpatient

    Claims Greater Than $25,000                         2            $51,642                 0                $0

    Manufacturer Credits for Replaced
                                                        1             20,293                 0                  0
    Medical Devices

      Outpatient Totals                                 3            $71,935                 0                $0

    Inpatient and Outpatient Totals                 200           $1,382,935                45          $246,316




     Risk Area for Judgmental Sample
    Inpatient

    Manufacturer Credits for Replaced
    Medical Devices                                     2            $30,856                 2           $15,084

    Outpatient

    Manufacturer Credits for Replaced
    Medical Devices                                     5            $34,166                 5           $20,817

    Inpatient and Outpatient Totals
                                                        7            $65,022                 7           $35,901


Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
billing errors we found at St. Vincent’s Medical Center. Because we have organized the information differently, the
information in the individual risk areas in this table does not match precisely with this report’s findings.
                      APPENDIX D: ST. VINCENT'S MEDICAL CENT ER                                    Page 1 of 16
                                    COMMENTS
     DENTONS 	              Gadi Weinreich              gad1.weinreich@dentons.com           Selans FMC SNR Denton
                            Partner                     D +1 202 408 9166                    den tons.com


                                                        Dentons US LLP
                                                        1301 K Street, NW
                                                        Suite 600, East Tower
                                                        Washington, DC 20005-3364 USA


                                                        T +1 202 4086400
                                                        F +1 202 408 6399

May 15, 2013


BY Federal Express and Electronic Mail

Lori S. Pilcher
Regional Inspector General for Audit Selrvices
Office of Inspector General
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, GA 30303

Re: 	   Response to the Draft Report regarding the Medicare Compliance Review of St. Vincent's
        Medical Center, Jacksonville, Florida, Report Number: A-04-12-08013

Dear Ms. Pilcher:

          Dentons US LLP respectfully sulbmits this letter and the accompanying binder of exhibits on
behalf of St. Vincent's Medical Center, Inc. ("St. Vincent's" or "Hospital"), a non-profit, faith-based, acute
care hospital located in Jacksonville, Florida. Specifically, the letter responds to the draft audit report (the
"Draft Reportn) -entitled, "St. Vincent's Medical Center Did Not Fully Comply With Some Medicare
Billing Requirements," Draft Audit Report, No. A-04-12-0813- that the U.S. Department of Health and
Human Services, Office of Inspector General ("HHS-OIG") sent to St. Vincent's by letter dated March 14,
2013. It is the Hospital's hope that HHS-OIG will carefully review and seriously consider St. Vincent's
response in its entirety because, for the reasons set forth below, the Hospital is of the view that both the
Draft Report and the underlying audit am sufficiently flawed - as a combined matter of law, statistical
valid ity and fairness- as to require that the Draft Report not be finalized and issued to the public at this
time. Instead, the Hospital urges HHS-OIG to reconvene with St. Vincent's and its representatives at its
earliest convenience for good faith discussions regarding appropriate solutions to the fundamental
deficiencies in the HHS-OIG audit ("Audit").

I.       Draft Report: Background

         The Audit is part of a national allditing initiative in which HHS-OIG sought to identify whether
hospitals were complying with Medicare billing requirements for certain types of claims that HHS-OIG
believed were at risk for noncompliance. The Audit focused on six (6) claim categories: (1) inpatient
                         1
claims for "short stays", (2) inpatient claims with high-severity diagnosis-related group ("ORG") codes,
(3) inpatient claims paid in excess of charges, (4) inpatient and outpatient claims involving medical device
credits for replaced devices, (5) outpatient claims greater than $25,000 and (6) inpatient claims with same
                                                            2
day discharges and readm issions ("Risk Categories'').


         It is the Hospital's understand inu that a "short stay" for purposes of the Audit included a claim with 

         an admission and discharge on the same calendar day and a claim in which discharge occurred 

         on the day immediately followin9 the day of adm1ssion. 

2
         Draft Report, at 2. 

                                                                                                 Page 2 of 16
  DENTONS 	                 Lons     Pilcher                                               Salane FMC SNR Denton
                            May 15, 2013                                                   dentons.com
                            Page 2




         The Audit involved claims with dlates of services in calendar years 2009 and 2010. In all, HHS­
OIG identified a total universe of 4,087 c:laims within the six Risk Categories (the "Universe of Claims"),
representing a total of $30,762,321 in Medicare payments. HHS-OIG then selected for review a
purportedly random sample of 200 claims (197 inpatient claims and three (3) outpatient claims), and
seven (7) judgmentally selected claims (two (2) inpatient claims and five (5) outpatient claims), involving
replaced medical devices. The randomly selected claims were subsequently consolidated into three
strata: Stratum 1 covered inpatient short stays, Stratum 2 covered inpatient claims with high severity
level DRG codes and Stratum 3 covered the remaining claims in the random sample of 200. HHS-OIG
has not explained why or how it chose to use a sample size of 200 claims. Nor has HHS-OIG explained
why it undertook post sampling stratification when doing so did not increase the reliability of the
extrapolation in any meaningful sense, or why it went beyond the first draw of 200 claims and selected
seven (7) judgmental claims, and, In any event, how doing so is appropriate from a statistical point of view
or part of a well defined sampling strate~Jy.

         HHS-OIG has repeatedly assure!d the Hospital that the decision to use a random sample and
extrapolate the results had nothing whatsoever to do with the Hospital or its conduct. In other words, the
decision was made without reference to the Hospital's error rates, Its cooperation with the Audit or its
response to the educational components of the Audit or other external claim reviews. Rather, HHS-OIG
stated that the decision to extrapolate was made internally by HHS-OIG and reflects the agency's
decision to make some of the ongoing HHS-OIG hospital Medicare compliance audits more "efficient."
Thus, HHS-OIG thanked the Hospital for its cooperation with the Audit and reiterated on more than one
occasion that HHS-OIG did not find any evidence of fraud or anything approximating fraud in the
Hospital's billing procedures and practices.

          It appears that HHS-OIG initially set out to perform a simple random sampling without
stratification. For reasons unknown to the Hospital, however. HHS-OIG changed the audit design in mid
course- i.e .. post sampling- by introducing three strata for stratified estimation . Regardless of the
rationale for this statistically ad hoc, and somewhat dubious, manner of proceeding, HHS-OIG's RAT­
STATS post-stratification variable estimation shows that the variability for the overall point estimate is
high (30.72 precision percent) as is the variability of both Stratum 1 and Stratum 2, individually- 31.44
and 142.79 precision percent at 90 perc(~nt confidence, respectively- casting material doubt about the
reliability of the estimates. No errors were found in Stratum 3. Furthermore, compared to un-restricted
variable appraisal, which would have bet~n consistent with the HHS-OIG's original simple random
sampling design, the HHS-OIG's post-stratification estimation failed to significantly improve the precision
of the overall estimate for the universe-- 32.32 precision percent at 90 percent confidence compared to
HHS-OIG's 30.72- further casting doubt on the sampling and estimation process.

II.     Draft Report: Findings

         The above referenced statistical infirmities notwithstanding, the Draft Report sets forth the
following findings:
                                                                                                      Page 3 of 16
    DENTONS                        Lon S. Pilcher                                               Salans FMC SNR Denton
                                   May 15, 2013                                                 dentons.c:om
                                   Page 3




          A.            Inpatient Claims

                                                                                                                    3
          Fifty-six (56) of the one hundred n inety-nine (199) inpatient claims contained at least one error:
Fifty-four (54) of these claims were randomly selected and allegedly resulted in net overpayments of
$227,264; two (2) were judgmentally selected and allegedly resulted in net overpayments of $15,084.4 Of
the fifty-four (54) randomly selected claims, forty-seven (47) were in Stratum 1 (representing alleged net
overpayments of $216,030) and the remaining seven (7) were in Stratum 2 (representing alleged net
overpayments of $11 ,234).

     • 	 Thirty-eight (38) of the fifty-six (E;6) inpatient errors involved claims that in HHS-OIG's view were
         incorrectly billed as inpatient stays.

                •	      Twenty-two (22) of the thirty-eight (38) were allegedly medically unnecessary. All twenty­
                                                                                 5
                        two (22) were randomly selected and part of Stratum 1.

                • 	 The remaining sixteen (1 6) involved some perceived irregularity with the physician's
                    admission order. Fiftee1n (15) of these claims had been randomly selected; one (1) was a
                                     6
                    judgmental claim. Of the fifteen (15) randomly selected claims, fourteen (14) were in
                    Stratum 1 and one (1) was in Stratum 2.

     •	   Fifteen (1 5) of the fifty-six (56) inpatient errors were found to have incorrect DRG codes. All
          fifteen (15) claims were randomly selected. Nine (9) were in Stratum 1; six (6) were in Stratum
          2.7

     •	   One (1) of the fifty-six (56) inpatient errors involved an allegedly incorrect reporting of a medical
                                                                8
          device credit The claim was a judgmental claim.

     •	   One (1) of the fifty-six (56) inpatient errors contained the incorrect discharge status. This claim
                                                           9
          was randomly selected and was in Stratum 1.

     •	   One (1) of the fifty-six (56) inpatient errors contained incorrect charges resulting in an improper
                                                                                        10
          outlier payment. This claim was randomly selected and was in Stratum 1.

          B.            Outpatient Claims

                                                                                                               11
     •	   Five (5) of the eight (8) outpatient claim errors involved an reported medical device credit. All
                                                                                                            12
          five (5) claims were judgmental!)! selected and resulted in alleged net overpayments of $20,817.


3
          Of the 199 inpatient claims, 197 were randomly selected and two (2) were judgmental selections.
          !fl. at i.
4
          !fl. at 4 .
5
          See id. at 5.
6
          See id. 

          See id. at 6 . 

8
          See id .
9
          See id.
10
          See id.
                                                                                                   Page 4 of 16
  DENTONS                      Lon S. Pilcher                                                Sal•ml FMC SNR Denton
                               May 15, 2013                                                  dentons.com
                               Page 4




        C.            Summary of Findings

          According to the Draft Report, the above referenced sixty-one (61) errors- fifty-six (56) inpatient
and five (5) outpatient - resulted in net overpayments totaling $242,348 for the inpatient claims
($227,264 for randomly selected claims and $15,084 for judgmental claims) and $20,817 for the
outpatient claims (all five (5) of which WE!re judgmental). HHS-OIG extrapolated its findings with respect
to the fifty-four (54) random ly selected claims to reach a net overpayment amount of $3,275,032 (which
represents the lower limit of the 90 percent confidence interval).

        D.            HHS-OIG Recommendations

        HHS-OIG recommends that the Hospital: (1} refund the extrapolated $3,275,032 in
overpayments, (2) refund the $35,901 in overpayments allegedly received with respect to the seven
                                                                              13
incorrect judgmental claims and (3) strengthen its Medicare billing controls.

Ill.    Hospital's Response

        A.            Claims From 2009 Are Time Barred

         Twenty-seven (27)- i.e., 50 percent- of the frfty-four (54) randomly selected claims that
allegedly gave rise to overpayments involve 2009 dates of service. All seven (7) -100 percent- of the
judgmental claims that allegedly gave rise to overpayments involve 2009 dates of service. A Hst of the
thirty-four (34) claims for services that w.ere furnished to the patient and adjudicated in 2009 is set forth in
TABA.

                      1.     Reopening and Recovery of Claims: An Overview

         Under the Medicare program, contractors are permitted to recoup identified overpayments if
certain criteria are met A key criterion is the timeliness of the recoupment. Specifically, federal law
places certain, firm time limits on the recovery of alleged overpayments, such as when the recovery would
                                          14
be against equity and good conscience.       As noted by the Secretary of Health and Human Services (the
"Secretary"), Section 1870 of the Social Security Act ("SSA"}, 42 U.S.C. § 1395gg, "provides a framework
within which liability for Medicare overpayments is determined and recoupment of overpayments is
                                                                                                        15
pursued. Th is framework defines the pr<)cess for pursuing the recoupment of Medicare overpayments. "
Foremost among the constraints imposed by this framework are two separate, but related, sets of ru les:
the reopening rules and the recovery rultes .

                      2.     Initial Determi111ation

           The Medicare program claim adj udication and decision-making processes commence with an
''initial determination" that establishes whether the items and services are covered and otherwise

11
        Again, of the eight (8) outpatient claims, three (3) were randomly selected and five (5) were
        j udgmental. See id. at i.
12
         See id. at 8.
13
        19.:. at 8.
14
         See 42 U.S.C § 1395gg(c); 42 G.F.R. § 405.358(b)(2).
15
         63 Fed . Reg. 14506 (Mar. 25, Hl98).
                                                                                                  Page 5 of 16

 DENTONS 	                  Lori S Pilcher                                                  S..lans FMC SNR   O~nton
                            May 15, 2013                                                    dentons.com
                            Page 5




reimbursable.16 Stated differently, the decision of a Medicare contractor to make payment to a provider of
items and services (!uL a hospital) constitutes an "initial determination ," which is binding upon all parties
to the claim, unless a party (whether the provider or contractor/adjudicator) reopens and revises the initial
determination. 17 With respect to the sixty-one (61) allegedly erroneous claims at issue, the Medicare
contractor initially determined that paym•ant was authorized. By law, those initial determinations must
stand unless revised by the contractor in compliance with legally mandated time frames and procedures.
To change or alter the initial determination, the Medicare contractor (not HHS-OIG) must formally
''reopen• the claim and initial payment determination. The contractor's revision to the initial determination
constitutes a "reopening".18

                3.       Reopening Rules

           The reopening rules permit a Medicare contractor to reopen a claim and revise a properly­
determined overpayment "for any reason" within the fi rst 12 months after initial payment. 19 This protects
the Medicare program from inadvertent errors. (This 12 month time frame does not apply here, however,
because all initial payment determination dates, the last of which was in 2010, occurred more than one
year ago.) Claims that are more than one year old, but less than four years old, may be reopened only if
                                                     °
the Medicare contractor establishes "good cause." 2 Finally. if more than four years have passed from
the initial payment determination , the initial payment determination may be reopened by the contractor if
and only if there is "reliable evidence . . . that the initial determination was procured by fraud or similar
        21
fault."

                 4.      Recovery Rule1s

         The recovery rules govern the ability of Medicare contractors to recover overpayments after the
contractor properly reopens a claim determination, consistent with the rules discussed above. Prior to
January 2, 2013, the recovery rules deemed providers and suppliers to be "without fault,• and thus not
liable for overpayments, if the overpaym1ant was discovered subsequent to the third calendar year after
                            22
the year of initial payment. In essence , this created a rebuttable presumption of no fault on the part of
the provider or supplier (and hence no recovery) after the passage of three calendar years following the
year of initial determination.23 The Medicare manual clarifies that in calcu lating the three year limitations
period:

                 Only the year of payment and the year it was found to be an
                 overpayment enters into the determination . . .. The day and the month

16
        See 42 C,F.R. §§ 405.803, 405.!~20.
17
        1ft§ 405.928.
18
        1ft§ 405.980(a)(1 ).
19
        42 C.F.R. § 405.980(b)( 1); see ~tlso Medicare Claims Processing Manual (CMS Pub. 100-04) Ch.
        34, § 10.6.1.
20
        42 C.F.R. § 405.980(b)(2); see §tlso Medicare Claims Processing Manual (CMS Pub. 100-04) Ch.
        34, § 10.6.1.
21
        42 C.F.R. § 405.980(b)(3); see §llso Medicare Claims Processing Manual (CMS Pub. 100-04} Ch .
        34, § 10.6.1.
22
        See 42 U.S.C § 1395gg(b) (20m~) (amended 2013); see also Medicare Financial Management
        Manual (CMS-Pub. 100-06) Ch. 3, §§ 80, 90.
23
        Mt. Sinai Hospital of Greater Mia1mi, Inc. v. Weinberger, 517 F.2d 329, 342 (5th Cir. 1975).
                                                                                                        Page 6 of 16

 DENTONS                     Lori S. Pilcher                                                    ~laos   FMC SNR Danton
                             May 15. 2013                                                       dentons.com
                             Page6




                 are irrelevant. With respect to payments made in 2000, the third
                 calendar year is 2003. For payments made in 2001 , the third calendar
                 year thereafter is 2004, •etc. Thus, the rules apply to payments made in
                 2000 and discovered overpayments made after 2003, to payments made
                                                                              24
                 in 2001 and discovered to be overpayments after 2004, etc.

Effective January 2, 2013 , the recovery rules' statute of limitations was extended such that providers and
suppliers are now deemed to be "withouli fault" if the overpayment is discovered and the initial
                                                                                                   25
determination is reopened subsequent to the fifth calendar year after the year of initial payment

                 5.       Analysis

       The January 2, 2013 statutory extension notwithstanding, all thirty-four (34) of the allegedly
erroneous claims covered by the Draft Report from 2009 are time barred for two separate legal reasons.

         First, the legal window to recover the 2009 claims permanently closed at midnight on December
31 , 2012 . Under federal law in full force and effect on January 1, 2013, any claim with an initial
determination date of 2009 or earlier was no longer subject to recovery by virtue of the then applicable
three year statute of limitations. In other words, the last day legally to recover a Medicare overpayment
with a 2009 initial determination date was December 31 , 2012.

         St. Vincent's is aware that on January 2, 2013, a new law went into effect, extending the recovery
limitations period from three (3) to five (5) years. The statutory amendment, however, is entire ly silent
With respect to the ability to apply the fivE~ (5) year period retroactively, let alone to apply it retroactively to
claims that had expired under the pre-existing limitations period. To be clear, although an argument can
be put forward that the five (5) year limitations period appl1es to claims adjudicated in 201 0 forward - as
opposed to from January 2, 2013 forwa rd - there is no legal basis nor any legal precedent that an
extension of a limitations period can somehow resuscitate previously time barred claims.

         Second, even if, assuming argunndo, the new "fifth calendar year" limitations period were to apply
retroactively and revive previously retiree! claims, a large portion of the 2009 claims still cannot be
recovered under federal law. The reason for this is straightforward: an "overpayment" may only be
recouped if the underlying claim has been reopened pursuant to the SSA § 1869 reopening rules. As set
forth above, however, if more than one year has passed since the date of initial determination, a Medicare
contractor may only reopen a claim: (1) if it possesses "reliable evidence" that the initial determination
was "procured by fraud or similar fau ft", or (2) within four years from the initial determination, provided that
                                           26
the contractor establishes "good cause.":

         As noted above, HHS-OIG has repeatedly confirmed the absence of fraud or similar fault. Thus,
in the instant matter, the Medicare contractor is left with the four year limit test. In order to establish "good
cause," the contractor would have to establish one of two things, neither of which is present here: (1) that
the evidence that was considered in ma~:ing the initial determination or decision clearly shows on its face



24
         See Medicare Financial Management Manual {CMS-Pub. 100-06), Chapter 3, Section 80.1.
25
         42 U.S.C. § 1395gg(b)-(c) (2013) (emphasis added); American Taxpayer Relief Act of 2012,
         Pub. L. No. 112-240, § 638, 126 Stat. 2313 (2013).
26
         42 C.F.R. § 405.980(b).
                                                                                               Page 7 of 16
  DENTONS                     LoriS Pilcher                                              Salans FMC SNR Danton
                              May 15. 2013                                               dentons.com
                              Page7




                                                                                  27
that an obvious error was made at the time of the determination or decision; or (2) that there is "new and
material evidence" that was not available~ or known at the time of the initial determination and may result
                          28
in a different conclusion. (According t01 the Medicare Financial Management Manual, "good cause"
does not exist if a provider complied with all pertinent regulations, made full disclosure of all material
facts , and on the basis of the information available, had a reasonable basis for assuming that the
payment was correct. 29)

       Even assuming for argument's sake that the contractor were able to establish "good cause," then
many of the 2009 claims would still be time barred by the four year limitation period if and when the
Medicare contractor decides to reopen the 2009 claims.

                6.      Summary

         Thirty-four (34) of the sixty-one (61 ) allegedly erroneous claims at issue here are presumed to be
"without fault" and hence not subject to Pecoupment as a matter of law. Moreover, even if the recoupment
limitations period had not expired with respect to the thirty-four (34) claims from 2009, many of these
claims cannot be recouped because, as a matter of law, they cannot be reopened .

        B.      Contested Claims

                1.       Inpatient Claims

                         a)          Allegedlly Incorrectly Billed as Inpatient

        Separate and apart from establishing that the thirty-four (34) claims from 2009 (see TAB A ) are
time barred, the Hospital intends to contest - on the clinical merits - 28 of the 38 claims which HHS­
OIG contends were incorrectly billed as inpatient. See TAB B. Of the 28, fifteen (15) are additionally
contested as time barred for the reasons set forth in Section Ill. A. above. Of the remaining 10 claims,
seven (7) are time barred. Th us, the Hospital concedes three (3) of the thirty-eight (38) c1aims. See TAB
C.

                                     (1)      Level of Care

        The Hospital contests on the merits seventeen ( 17} of the twenty-two (22} claims which HHS-OIG
contends were " medically unnecessary" - i.e., that should have been billed as outpatient or outpatient
with observation. See TAB D. Of these seventeen (17) claims, eleven (11) claims are additionally
contested as time barred 2009 claims. Of the remaining five (5} claims in this category of twenty-two (22 )
claims, three (3) are contested as time barred 2009 claims. Thus, the Hospital concedes two (2) of the
twenty-two (22) claims. See TAB E.

                                     (2)      Medical Record

        The Hospital contests on the me·rits eleven (11 ) of the sixteen (16) claims which HHS-OIG
contends were not supported by a valid order signed by the physician or contai ned conflicting admission
information. See TAB F. Of these 11 claims, four (4 ) also are contested as being time barred 2009

27
        See 42 C.F.R. § 405.986(a}(2}.
28
        See 42 C.F .R. § 405.986(a}{1).
2.9
        See Medicare Financial Management Manual (CMS-Pub. 100-06) Ch. 3, § 90.
                                                                                                 Page 8 of 16
 DENTONS 	                    Lon S. PilCher                                             Salans FMC S NR Den ton
                              May 15, 2013                                               dentons.com
                              Page 8




claims. Of the remaining five (5) claims in this category, four (4) are contested as time barred 2009
claims. Thus, the Hospital concedes one (1) of the sixteen (16) claims. See TAB G.

                        b)             Alleged ly Incorrect Diagnosis-Related Codes

        The Hospital contests eight (8) of the fifteen ( 15) claims which HHS-OIG concludes had incorrect
Diagnosis-Related Codes: three (3) on the merits, see Tab H , and five (5) claims on the grounds that they
are time barred 2009 claims. Thus, seven (7) of the claims in this category are not being contested. See
TAB I.

                         c)            Allegedly Incorrect Reporting of Medical Device Credits

       The Hospital contests the one (11) inpatient claim which HHS-OIG concluded incorrectly reported
a medical device credit on the grounds tlhat it is a time barred 2009 claim. See TAB J.

                         d)            Allegedly Incorrect Discharge Status

        The Hospitalls not contesting the one (1} claim wh ich HHS-OIG concluded had an incorrect
discharge status. See TAB K.

                         e)            Allegedly Incorrect Charges Resulting in Improper Outlier Payment

         The Hospital contests the one (1) claim which HHS-OIG concluded had incorrect charges
resulting in improper outlier payment on the grounds that it is a time barred 2009 claim. See TAB L.

                2.       Outpatient Claims

        The Hospital intends to contest all five (5) of the outpatient claims which HHS-OIG concluded had
incorrect reporting of a medical device credit on the grounds that they are time barred 2009 claims. See
TABM.

        C.      Extrapolation Concerns

         The Hospital has significant concerns with HHS-OIG's recommendation that its Audit
determinations with respect to the fifty-four (54) randomly selected claims be extrapolated to the 4.087
claims that make up the Universe of Claims. The Hospital objects to extrapolation in the instant case
because extrapolation is not warranted htere as a matter of law, statistical integrity and fundamenta l
fairness . Each of these grounds of objection is addressed sequentially.

                 1.      Extrapolation l:s Inappropriate As a Matter of Law

        The authority of the Centers for Medicare & Medicaid Services ("CMS") and its contractors to
extrapolate is subject to strict statutory and regulatory limits. Under the Social Security Act:

                 a Medicare contractor may not use extrapolation to determine
                 overpayment amounts to be recovered by recoupment, offset, or
                 otherwise unless the Secretary determines that (A) there is a sustained
                                                                                                  Page 9 of 16
                            Lon S. Ptleher                                                  Salans FMC SNR Denton
                            May 15. 2013                                                    dentons.com
                            Page9




                or high level of payment· error, or (B) documented educational
                                                                      30
                intervention has failed to co rrect the payment error.

Neither the Social Security Act nor any a1pplicable regulation defines the term "high rate of error'' or
provides criteria for judging when a docu1mented educational intervention has failed.

         The preamble to the implementing regu lations addressing extrapolation explains that
extrapolation is merely a method of determining an overpayment and that "the determinatl6n of a
sustained or high error rate will be used as the basis for a contractor undertaking further review of claims
submitted by the provider or supplier."31 Despite specific requests, CMS declined to define the term high
                                                                                                  32
error rate, referring the public to the Medlicare Program Integrity Manual (CMS Pub. 100-08). The
Medicare Provider Integrity Manual (" PIM"}, however, provides methods by which HHS may find that a
high rate of error exists; it does not offer a specific threshold. Similarly, no guidance is provided for
making a determination that a "documented educational intervention has failed ."

         Although most courts addressin~~ the definition of "high rate of error" have been asked to address
the actual merits of CMS' or the HHS-OIG's finding of a high rate of error, such cases have been
                                 33
precluded from judicial review. Howev.er, in at least one case, Cabarrus Podiatry Clinic, a Medicare
Administrative Contractor ("MAC") reversed an overpayment calculation based on extrapolation where
neither the contracto r nor CMS could produce any documentation concerning a finding of a high error rate
or a documented failure of education.34 Thus, at a bare minimum, the MAC, CMS or HHS-OIG must
document its find ings that there exists a high rate of error or a failure of education before extrapolating the
findings of a statistical sample to a broader universe of claims.

         To date, HHS-OIG has not met t his burden- i.e. , it has not suggested, not even once, that its
audit findings evidenced either a "sustained or high level of payment error" or that ""educational
intervention has failed. • The reason for this failure is straightforward: it has not made the requisite
showing, because it cannot. Indeed, HHS-OIG has repeatedly assured the Hospital that the decision to
extrapolate was made by HHS-OIG before the Audit commenced based on considerations- audit
efficiencies -that had nothing whatsoever to do with the Hospital or its conduct Although the use of
extrapolation (rather than a claim-by-claim review} would arguably increase audit efficiency, ''efficiency" is
not one of the statutorily defined criteria jfor using extrapolation .

        Even if it decided to reverse its position at this late stage, HHS-OIG would be hard pressed to
establish that extrapolation is warranted because of the Hospital's error rates or failure to respond to
educational efforts. With respect to high error rates, HHS-OIG, as noted herein, has conducted several
dozen "Medicare Compliance Review" audits over the past two years, and of the forty-eight (48) audit
reports published thus far, HHS-OIG has. yet to recommend extrapolation. Importantly, at least

30
        See 42 U.S.C § 1395ddd(f)(3) (E!mphasis added).
31
        74 Fed. Reg. 65296, 65303-04 (Dec. 9, 2009).
32
33
        !.<1.
        See Anghel v. Sebelius, No. 10-CV-4574, 2012 WL 6212843 (E.D.N.Y. Dec. 13, 2012); Gentiva
        Healthcare Corp. v. Sebelius, 857 F .Supp.2d 1, 13 (D.D.C. 2012); Morgan v. Sebelius, No. 11
        Civ. 0300, 2012 WL 1231960, at * 1 (S.D.W .Va. Apr. 12, 2012); John Balko & Assocs. v. Sebelius,
        No. 12-CV-0572, 20 12 WL 6738246 {W .O. Pa. Dec. 28, 2012).
34
        Cabarrus Podiatry Clinic (Appellant) (Beneficiaries) Claim for Part B Benefits, ALJ Appeal No. 1­
        127356701 (Dec. 14, 2007).
                                                                                                  Page 10 of 16
 DENTONS                     LoriS Pilcher                                                    Salans FMC SNR Denton
                             May 15 , 2013                                                    dentons.oom
                             Page 10




twelve (12) of these audits involved error rates of 50 percent or more, of which two (2) produced error
rates in excess of 70 percent - more than double the (29.5 percent) error rate found at Hospital. As
explained by the Secretary, extrapolation is a method of calculation, not an unchecked sanction. Thus,
HHS-OIG must at the very least remain consistent in its application of the "high rate of error" criterion.
Such consistency is seriously called into question if providers presenting nearly double the error rate of
the Hospital are not found to have a "high rate of error" or are not, for some other undocumented reason ,
subject to extrapolation.

         Similarly, HHS-OIG cannot maintain that previous educational attempts have failed to remedy the
payment erro r. The Hospital cooperated fully in the educational components of the Audit, a fact that
HHS-OIG acknowledged . Furthermore, the only documented "educational intervention" that could
possibly be cited as a justification for extrapolation (i.e. , education which was directly targeted at
addressing any errors found in the Audit) was introduced in the Audit Itself and its effects have yet to be
evaluated by HHS-OIG. Therefore, HHS-OIG cannot maintain that ~documented educational intervention
has failed to correct the payment error."

        In light of HHS-OIG's failure to address, let alone satisfy, either of the specific statutory criteria
required for use of extrapolation, HHS-OIG should reconsider and reverse its preliminary decision to
recommend extrapolation.

                 2.       Statistical Deficiencies

         Even if , assuming arguendo, extrapolation of the fifty-four (54) randomly selected c laims were
legally appropriate, the post sampling decision to engage in stratification after initially selecting a simple
random sample of 200 claims and to draw seven (7) j udgmental claims, raises genuine concerns about
the integrity of the numbers and HHS-OIG's sampling planning. First, with respect to the seven (7)
judgmental c laims, they should not have been drawn In the first instance. Either the sampling and
extrapolation are sound or they are not. By engaging In post sampling judgmental draws, HHS-OIG
necessarily casts doubt regarding the pn:1cision of the extrapolated results. Unless HHS-OIG is willing to
abandon extrapolation w ith respect to this Audit, all seven (7) judgmental claims, including the five (5) that
allegedly are erroneous, should be removed from the Draft Report.

          Second, with respect to post sampling stratification, HHS-OIG contends that it decided to group
the fifty-four (54) claims into three strata for homogeneity purposes. This, however, could have, and
indeed should have, been incorporated into the sample design prior to sampling. Moreover, stratification
is employed by statisticians in order to re!duce the overall variability of extrapolated resu lts. This objective
was simply not achieved by HHS-OIG in the instant case. The post stratification extrapolation generated
an overall point estimate of $4 ,726,962 atnd a lower limit $3,237,032 with an unacceptably high precision
level of 30.72 percent at the 90 percent confidence level- more than five (5) percent worse than the
twenty-five (25) percent precision threshold established by HHS-OIG in its 1998 voluntary self disclosure
protocol and widely used by Independent Rev1ew Organizations ("IRO") auditing entities under HHS-OIG
Corporate Integrity Agreements.

         The imprecision of the extrapolated resu lts is driven in large part by the extreme unreliability of
Stratum 2. HHS-OIG reports a precision level of 142 .79 percent, meaning that the lower limit of the two­
sided 90 percent confidence interval for the Stratum reflects an underpayment of $83,966, not an
overpayment. Thus, the Hospita l respectfu lly posits that none of the claims in Stratum 2 should be used
for extrapolation purposes. (Stratum 3 was not used due to insufficient sampling items).
                                                                                                Page 11 of 16
                            Lon s. Pilcher                                                 salami FMC SNR Denton
                            May 15, 20 13                                                  dentons.com
                            Page 11




                3.       Extrapolation Would Violate Fundamental Notions of Fairness

          In March 2011 , HHS-OIG released its first "Medicare Compliance Review" report (South Shore
Hospital in South Weymouth, MA), regarding whether the hospital complied with Medicare requirements
for billing certain "high risk" inpatient anql outpatient services. In contrast to most other HHS-OIG audit
projects, this Medicare Compliance Review audit included several different types of claims. In addition,
although the overall error rate was 64 pe!rcent, HHS-OIG recommended that the hospital refund only the
overpayment amount attributable to the incorrectly billed claims. In other words, it did not propose a
payment based on extrapolation.

         Over the last two years, HHS-OIG has released a total of 48 Medicare Compliance Revtew
audits. Each and every one of them has. taken the approach described above, i.e., no extrapolation. As
at South Shore, others of the 48 facilities under review had overall error rates of 50 percent or more:
Lahey Clinic Uust released) (76 percent). Pacific Medical Center (1/10/13} (72 percent), University of Iowa
(11/13/12} (69 percent), North Kansas City Hospital (10/18/12) (68 percent), South Shore Hospital
(3/2/11) (64 percent), Brigham and Women's Hospital (3/16/12) (61 percent), Maine Medical Center
(6/26/12) (61 percent), University of Cali1fornia, San Francisco {9/21/11) (55 percent), Cape Cod Hospital
(7/11/11) (53 percent). Singing River Ho:spitaJ (7/18/12) (52 percent), Georgetown University Hospital
(4/9/12) (51 percent) and Norwood Hosp•ital {11/30/11) (50 percent).

         HHS-OIG has received widespread praise for its approach to these Medicare Compliance
Reviews. For example, a 2012 article in Modem Healthcare reported numerous favorable comments
                                                                          35
from hospitals regarding the educational approach taken by HHS-OIG. Moreover, Assistant Inspector
General. Brian Ritchie, was reported stating that, "the goal is to pick a few and use them to instruct the
hospital on best practices and prevent any future problems."

         On February 29, 2012, HHS-OIG conducted an entrance conference for the audit of St. Vincent's,
and the entrance memorandum stated that, "If you would like to have an idea of what our final report will
look like, there are similar reports published on the http://oig.hhs.gov website: Tallahassee Memorial
Hospital, Cape Cod, Fletcher Allen, Ligh1thouse, St. Vincent's [Bridgeport, CT]." None of the referenced
audits contained recommendations to extrapolate, however.

         In v iew of the above, St. Vincent's was shocked to realize in the fall of 2012 that HHS-OIG
intended to extrapolate the Audit resu lts. This was particularly the case in view of St. Vincent's overall
error rate of 29.5 percent (assuming all HHS-OIG payment errors are upheld), which is dramatically lower
than many other recent Medicare Compliance Review audits, The Hospital has been informed that there
are other facilities undergoing Medicare Compliance Reviews for which extrapolation is contemplated, but
(despite our request) neither St. Vincent's nor the industry has been told which criteria are used by HHS­
OIG in deciding whether and when to extrapolate.

        St. Vincent's does not question the legal authority of HHS-OIG to perform Medicare Compliance
Review audits or to recommend extrapol.ation in compliance with established legal and statistical
standards. But we respectfully suggest that it is unjust, arbitrary, and entirely unprincipled to precipitously
recommend extrapolation for a facility wilth an uerror rate" performance that is significantly lower than
many other facilities.



35
        Modern Healthcare, Audits said to put hospitals on track, pp. 17-21 (Oct. 22, 2012) .
                                                                                                  Page 12 of 16
 DENTONS 	                   Lon S. Pilcher                                                   Salans FMC SNR Denton
                             May 15. 2013                                                     dentons.com
                             Page 12




                 4. 	    Extrapolation may lead to duplicate refunds and other inconsistencies due
                         to overlap with RAC process.

         Throughout the course of the Audit, HHS-OIG representatives have assured the Hospital that
they had in structed the Recovery Audit Contractor ("RAC") to cease requesting and auditing claims from
the Universe of Claims. Failure of the RA.C to do so would inevitably result in the Hospital paying twice
for the same alleged error and result in a materially exaggerated extrapolation amount.

         HHS-OIG's assurances notwithstanding, the RAC has delved deeply into the Universe of Claims,
irretrievably infecting that Universe and rnaklng it entirely inappropriate for extrapolation. Here are the
facts to the best of the Hospital' s understanding:

        •	       HHS-OIG identified all s.hort stay claims from 2009 and 2010. (Short stays were defined
                 as any inpatient claim that had a discharge date that was on the same day or one day
                 after the patient's admission to the Hospital.)

        •	       Next, HHS-OIG excluded any 2009 or 2010 short stay c laim that had been pulled for
                 review by the RAC, leaving 2,307 short stay claims.

        •	       The 2,307 claims were made part of the Universe of Claims for purposes of this Audit.

        •	       HHS-OIG then selected 110 claims from the pool of 2 ,307 for individual review by HHS­
                 OIG , reducing the number of short stay claims in the Universe of Claims to 2 ,197.

        •	       Since January 2012, the RAC has requested and received documentation relating to
                 more than 700 (or 31 plus percent) of the remaining 2,197 short stay claims.

Under the circumstances, it would be sta1tistically invalid and patently unfair to proceed with the
extrapolation suggested in the Draft Report. Again, HHS-OIG should treat St. Vincent's just like the other
hospitals that have had their reports published - i.e., it should abandon its present intention to extrapolate
its findings.

                 5. 	     Extrapolation, iif any, should be postponed until all claims have been fully
                          adjudicated on their merits.

          As noted above, HHS-OIG has determined that fifty-four (54) claims (all inpatient) out of an
allegedly random sample of 199 (or 27.1 percent) were erroneously paid In the course of the initial
determination. According to HHS-OIG, this error rate should be extrapolated against the Universe of
Claims in order to achieve audit efficiency. Separate and apart from all of St. Vincent's other arguments,
as set forth elsewhere in this Response. the Hospital posits that extrapolation at this stage of the
proceeding would be highly inefficient In a nutshell, it is premature to extrapolate errors at this stage
because St. Vincent's intends to contest many of the findings on a variety of grounds. Inevitably, the
number of erroneous claims is likely to k•eep shifting (downward) at the various levels of adjudication and
appeal, requiring repeated monetary adjustments and reconciliations between the Hospital and its
Medicare contractor. Among other things, and as noted elsewhere in this Response, St. Vincent's
believes in good faith that twenty-seven (27) of the fifty-four (54) alleged ly random claims at issue are
time barred, that thirty-one (31 ) of the fifty-four (54) claims were correctly adjudicated in the first instance
(i.e. , HHS-OIG audit findings are wrong), and that all seven (7) claims from Stratum 2 and use of Stratum
                                                                                             Page 13 of 16
 DENTONS 	                 Lon S. Pilcher                                                Salens FMC SNR Denton
                           May 15, 2013                                                  dentons.com
                           Page 13




2 in extrapolation should be disregarded because considering a post stratification stratum with a precision
level of 142.79% Is unacceptable and represents a guesstimate, rather than a solid estimate, and is
therefore unreasonable under universalll/ accepted statistical principles and procedures. Accordingly , the
Hospital requests that HHS-OIG either abandon the extrapolation recommendation in its entirety or, at a
minimum. change the recommendation as follows :

                We recommend that the Hospital refund to the Medicare program all
                overpayments using the following formulation : (the total dollar amount of
                actual overpayments remain ing after each of the contested random
                claims has been fully adjudicated) applied across (the total dollar amount
                associated with the Universe of Claims) plus (the total dollar amount of
                actual overpayments remaining after each of the contested judgmentally
                selected claims has also been fully adjudicated}.

                6. 	    The overpaymEmt amounts associated with inpatient claims that should
                        have been adjudicated as outpatient claims (and any attendant
                        extrapolation) should be based on the difference between the Part A
                        payment that was made and the Part B payment that would have been
                        made if the claiim was billed on an outpatient basis, not on the full Part A
                        payment.

         HHS-OIG's determination thatth trty-eight (38) claims (thirty-seven (37) randomly selected and
one (1) judgmental) which had been processed as inpatient claims should have been processed as
outpatients demonstrates that HHS-OIG does not dispute that the services at issue were furnished and
medically necessary. As such , and consistent with both law and equity, HHS-OIG should recommend
that once it is determined (!&, after full adjudication) which claims should have properly been paid by
Medicare Part B (as opposed to Medicare Part A) , the Medicare contractor should work in good faith with
the Hospital to calculate and deduct from the Part A overpayment the amount that would have been paid
by Part B.

         The proposed recommendation would be consistent with Medicare guidance regarding similarly
postured matters. Medicare guidance provides that a presiding administrative law judge (''ALJ") has the
authority to order outpatient reimbursem•:nt following an inpatient admission .36 As detailed in the
O'Connor Hospital decision \'O'Connor"). the Medicare Appeals Council ("Council") upheld an ALJ's
ruling that the hospital was entitled to rei mbursement for full outpatient services under Medicare Part B
even though the hospital initially billed the claim as an inpatient service under Medicare PartA 37

          In O'Connor, CMS asserted that the ALJ "erred as a matter of law by ordering Medicare payment
for 'the observation and underlying care' provided to the beneficiary because those services are not
separately billable under Part A" 38 The Council disagreed with CMS. holding that the agency's argument


        See generally 42 C.F.R. § 405. 11032. 

37
        See In the case of O'Connor Hospital, Med & Med GO (CCH) P 122133 (H.H.S. Feb. 1, 2010), 

        2010 WL 425107, consistent with In the case of UMONJ ·University Hospital. 2005 WL 6290383 

        (H.H.S. Mar. 14, 2005) (directing the CMS contractor to reimburse the hospital for outpatient 

        services pursuant to Medicare P.art B after payment was denied for inpatient services pursuant to 

        Medicare Part A) . Copies of referenced cases are included at Tab N. 

        O'Connor, at 2 . 

                                                                                                   Page 14 of 16
 DENTONS                          Lon S. Pilcher                                               Salans FMC SNR Denton
                                  May 15, 2013                                                 dentons.com
                                  Page 14




was inconsistent with guidance provided in multiple CMS manuals. In support of its conclusion , the
Council quoted the Medicare Claims Processing Manual: "although providers may sometimes bill for
                                                                                            39
services that are not covered as billed, they are nonetheless entitled to correct payment."

        Even more recently, in May 201:2, in the Indiana University Health Methodist Hospital {"Indiana
University") decision and the May 2011 r111ontefiore Medical Center ("Montefiore") decision, the Council
confirmed the O'Connor decision, determining that Part B payment may be made if Part A payment is
denied, following CMS's express guidance in the Medicare Benefit Policy Manual ("MBPM") and other
         40
manuaJs.

         Furthermore, in a July 13, 2012 Technical Direction Letter regarding ALJ Decisions, CMS
instructed its contractors as follows :

                        There have been a number of Administrative Law Judge (ALJ) decisions
                        in recent months that uphold a claims administration contractor's denial
                        of inpatient services as not reasonable and necessary, but requi re the
                        contractor to pay for the services on an outpatient basis and/or at an
                        "observation level of care." .. . Medicare pays for observation services
                        under the outpatient prospective payment system (OPPS). However,
                        observation services are generally bundled and not paid separately.

Therefore, CMS has reasoned that the A.LJ's decision requires the claims administration contractor to pay
for all services that would be separately tpayable under OPPS had the hospital initially billed Medicare for
outpatient services on a 13x or 85x type of claim.

        Given that Technical Direction L•:tters are not publicly available, CMS' first clear public
pronouncement of its position was issued in CMS 1455-R ("CMS Ruling") dated March 13. 2013. In it, the
CMS Administrator specifically referred to the above noted ALJ decisions and endorsed hospitals' being
paid "under Medicare Part B following a denial of a Medicare Part A hospital inpatient claim . _. [if] an
inpatient admission was [found] not reasonable and necessary under section 1862(a)(1){A) of the Social
               41
Security Act. "

        CMS concurrently issued a proposed rule. entitled "Medicare Program; Part B Billing in Hospitals"
addressing the policy of billing under Medicare Part B following the denial of a Medicare Part A hospital
                42
inpatient claim. In the proposed rule, CMS acknowledged that the Medicare statute and regulations
require CMS to pay hospitals under Medicare Part B for reasonable and necessary services furnished to
beneficiaries. Specifically, CMS provides:

                        Having reviewed the statutory and regulatory basis of our current Part B
                        inpatient payment policy , we believe that, under section 1832 of the


39
        .!.9.:. at 5.
40
        In the case of Indiana University Health Methodist Hospital. Docket No. M-12-872 (H .H.S. May
        17, 2012), 2012 WL 3067987, at "10; see also In the case of Montefiore Medical Center. Docket
        No. M-10-1121 (H.H .S . May 10, 2011), 2011 WL6960290, at*22; see also O'Connor, at6.
41
        Centers for Medicare & Medicaid Services, Ruling No. CMS-1455-R (Mar. 13, 2013) (hereinafter,
        "CMS Ruling"), at 1.
42
        78 Fed. Reg. 16632 (Mar. 18, 20113).
                                                                                                  Page 15 of 16
 DENTONS                      Lori S Pilcher                                                 Salans FMC SNR Denton
                              May 15, 2013                                                   dentons.com
                              Page 15




                   [Social Security] Act, Me~dicare should pay all Part 8 services that would
                   have been reasonable c:md necessary (except for services that require an
                   outpatient status) if the hospital had treated the beneficiary as a hospital
                                                                                      43
                   outpatient rather than treating the beneficiary as an inpatient[.]

                                                                                44
         The CMS Ruling is effective until such date as a final rule is issued. Thus, the CMS Ruling
applies to Part A inpatient claims that WE!re denied because inpatient admission was not reasonable and
necessary, as long as the denial was made: (1) while the CMS Ruling is in effect; (2) prior to the effective
date of the CMS Ruling, but for which the timeframe to file an appeal has not expired ; or (3) prior to the
                                                                         45
effective date of the CMS Ruling, but for which an appeal is pending. CMS "acquiesce[d) to the
approach taken in the aforementioned ALJ and Appeals Council decisions'' and found that that when a
Part A inpatient admission is denied because the inpatient admission was not reasonable and necessary,
the hospital may submit a Part B inpatient claim for payment for the Part 8 services that would have been
payable to the hospital had the beneficiary originally been treated as an outpatient, rather than admitted
                                                                                       46
as an inpatient, except when those services specifically require an outpatient status.

         In short, consistent with the ALJ and Medicare Appeals Council Rulings and the recent CMS
Ruling, HHS-OIG should (or recommend! that CMS) calculate the overpayment at issue by determining
the difference between the inpatient reimbursement recejved and the outpatient reimbursement the
Hospital would have received. A recommendation that does not provide for this to be done prior to
extrapolation, if any, will give rise to a logistical nightmare because once the Part A payments are
extrapolated there will be no practical way to determine the Part 8 set-off. This would be inconsistent
with the current state of the law and pate!ntly unfair.

           Thus, the recommendation proposed in Section 111.5 above should be further modified to read as
follows:

                   We recommend that the Hospital refund to the Medicare program all
                   overpayments using the following formulation: (the total dollar amount of
                   actual Part A overpaymEmts remaining after each of the contested
                   random claims has been fully adjudicated) minus (the total dollar amount
                   of Part B payments that would have been paid had the erroneous claims
                   been processed as outpatient claims) applied across (the total dollar
                   amount associated with the Universe of Claims) plus (th e total dollar
                   amount of actual overpayments remaining after each of the contested
                   judgmentally selected cl;aims has also been fully adjudicated).

IV.        St. Vincent's Inte rnal Contro ls

         St. Vincent's is a responsible provider of health care items and services with a deep commitment
to operating in compliance with applicable rules and regulations. As part of this commitment, the Hospital
routinely examines its coding and billing practices and procedures with the objective of achieving ever­
improved accuracy and completeness.


43
           & at 16636.
           CMS Ruling, at 2-3.
45
           &at 14.
46
           M,.at4, 6.
                                                                                                P_age 16 of 16
  DENTONS 	                   Lori S Pilcher                                                SalaO$ FMC SNR Denton
                              May 15, 2013                                                  dentons.com
                              Page 16




         In order to ensure that patients a re property categorized as either inpatients or outpatients, the
Hospital uses outside clinical consu ltants to undertake a concurrent review of the medical record and the
presence of medical necessity, thereby e nabling adjustments before patient discharge. The HHS-OIG's
determinations notwithstanding, the Hospital has an impressive record in connection with appealing and
reversing RAC findings of error. To date, that track record has resulted in an appellate success rate in
excess of 95 percent. This strongly sug9ests that the Hospital's internal controls are fully operational and
highly efficient.

         St. Vincent's has no intention of resting on its laurels , however. Thus, since the start of the Audit
it has implemented a hospital-wide electronic medical record, which certainly should improve the ability to
determine the presence of a valid physician order. In addition, the Hospital has engaged a courier
service to better obtain timely physician :signatures in those instances where a definitive signature is
absent.

                                                  •      *   ..


       On behalf of St.. Vincent's, we thank you in advance for your consideration of our various
arguments and concerns. We, and our client, will make ourselves available to you in the event that you
have any questi ons or require further information .

                                                      Sincerely,

                                                   /Gadi Weinreich/

                                                      Gadi Weinreich
                                                      Partner

cc:         Bill Mayher
            Jeffrey Middlebrooks
            D. McCarty Thornton




2 5535744\V-11
